Case: 18-17462, 05/26/2020, ID: 11700277, DktEntry: 47-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

(1 of 7)

FILED
MAY 26 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES ex rel. DIANA JUAN,
Relator,

No.

U.S. COURT OF APPEALS

18-17462

D.C. No. 4:16-cv-04934-CW
Plaintiff-Appellant,
MEMORANDUM*

v.
STEPHEN HAUSER; et al.,
Defendants-Appellees,
UNITED STATES OF AMERICA,
Real-party-in-interestAppellee,
and
BOARD OF REGENTS OF THE
UNIVERSITY OF CALIFORNIA; et al.,
Defendants.

Appeal from the United States District Court
for the Northern District of California
Claudia Wilken, District Judge, Presiding
Argued and Submitted February 3, 2020
San Francisco, California

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
1a

Case: 18-17462, 05/26/2020, ID: 11700277, DktEntry: 47-1, Page 2 of 3

Before: PAEZ and BEA, Circuit Judges, and JACK,** District Judge.
Plaintiff-Relator Diana Juan appeals the district court’s dismissal of her
complaint under Rule 9(b) of the Federal Rules of Civil Procedure and the district
court’s denial of her motion to amend her complaint. We affirm.
1. Reviewing de novo, Gonzalez v. Planned Parenthood of L.A., 759 F.3d
1112, 1114 (9th Cir. 2014), we conclude the district court correctly dismissed
Juan’s Second Amended Complaint (SAC), the operative complaint, because it
failed to “state with particularity the circumstances constituting fraud.” Fed. R.
Civ. P. 9(b); see United States v. Healthcare Ins. Co., 848 F.3d 1161, 1180 (9th
Cir. 2016) (explaining that a complaint must allege the “who, what, when, where,
and how of the misconduct charged”). The principal deficiency here—and the
basis upon which we affirm—is that Juan failed to allege how each defendant
played a role in the alleged fraud. The district court correctly ruled that the SAC
merely “lump[s]” together the defendants and fails to “inform each defendant
separately of the allegations surrounding his alleged participation in the fraud.”
2. The district court did not abuse its discretion in denying Juan’s motion for
leave to amend her complaint. See Gonzalez, 759 F.3d at 1114. “Where the
plaintiff previously has been granted leave to amend and has subsequently failed to

**

The Honorable Janis Graham Jack, United States District Judge for
the Southern District of Texas, sitting by designation.
2

2a

(2 of 7)

Case: 18-17462, 05/26/2020, ID: 11700277, DktEntry: 47-1, Page 3 of 3

add the requisite particularity in its claims, the district court’s discretion to deny
leave to amend is particularly broad.” Loos v. Immersion Corp., 762 F.3d 880,
890–91 (9th Cir. 2014). The district court provided Juan with thorough
instructions on how Juan could amend her complaint to meet Rule 9’s strictures.
Juan’s SAC, however, was nearly identical to the First Amended Complaint and
added nothing more than conclusory or generic allegations of fraud.
3. Lastly, the district court did not abuse its discretion in precluding Juan
from further amending her claims to add the defendants it struck from the SAC.
Juan had ample time to seek leave to add those defendants, but never filed a
motion nor indicated any intention to do so. Juan also fails to explain on appeal
what new facts she would have alleged. We therefore see no basis to reverse.
AFFIRMED.

3

3a

(3 of 7)

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 1 of 7

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE NORTHERN DISTRICT OF CALIFORNIA

3
4
5
6
7
8
United States District Court
Northern District of California

9

UNITED STATES OF AMERICA,
ex rel. DIANA JUAN,

Case No. 16-cv-04934-CW

Plaintiff,

ORDER OF DISMISSAL

v.
REGENTS OF THE UNIVERSITY OF
CALIFORNIA et al.,

(Dkt. No. 78)

Defendants.

10
11
12

Defendants Stephen Hauser, Sam Hawgood and Eileen Kahaner

13

have moved to dismiss the Second Amended Complaint (2AC).

14

Plaintiff-Relator Diana Juan opposed the motion and Defendants

15

filed a reply.

16

Defendants’ motion and DISMISSES WITH PREJUDICE all claims

17

against Defendants.

For the reasons set forth below, the Court GRANTS

BACKGROUND

18
19

Plaintiff-Relator alleges that Defendants violated the False

20

Claims Act (FCA) in submitting Medicare and Medicaid claims for

21

services at the University of California, San Francisco.

22

Court construed the 2AC as a motion for leave to amend and

23

granted it insofar as Plaintiff-Relator asserts claims against

24

Hauser, Hawgood and Kahaner.

25

as a request to dismiss voluntarily the claims against those

26

Defendants named in the First Amended Complaint but not the 2AC

27

and granted the request.

28

only remaining Defendants.

The

The Court further construed the 2AC

Hauser, Hawgood and Kahaner are the

4a

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 2 of 7

LEGAL STANDARD

1

United States District Court
Northern District of California

2

A complaint must contain a “short and plain statement of the

3

claim showing that the pleader is entitled to relief.”

4

Civ. P. 8(a).

5

a claim to relief that is plausible on its face.”

6

Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.

7

Twombly, 550 U.S. 544, 570 (2007)).

8

12(b)(6) for failure to state a claim, dismissal is appropriate

9

only when the complaint does not give the defendant fair notice

10

of a legally cognizable claim and the grounds on which it rests.

11

Twombly, 550 U.S. at 555.

12

the plaintiff pleads factual content that allows the court to

13

draw the reasonable inference that the defendant is liable for

14

the misconduct alleged.” Iqbal, 556 U.S. at 678.

15

Fed. R.

The plaintiff must proffer “enough facts to state
Ashcroft v.

On a motion under Rule

A claim is facially plausible “when

In considering whether the complaint is sufficient to state

16

a claim, the Court will take all material allegations as true and

17

construe them in the light most favorable to the plaintiff.

18

Metzler Inv. GMBH v. Corinthian Colleges, Inc., 540 F.3d 1049,

19

1061 (9th Cir. 2008).

20

of the complaint, materials incorporated into the complaint by

21

reference, and facts of which the court may take judicial notice.

22

Id. at 1061.

23

conclusions, including threadbare “recitals of the elements of a

24

cause of action, supported by mere conclusory statements.”

25

Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at 555).

26

The Court’s review is limited to the face

However, the Court need not accept legal

Rule 9(b) provides that in “alleging fraud or mistake, a

27

party must state with particularity the circumstances

28

constituting fraud or mistake.”
5a

Fed. R. Civ. P. 9(b).
2

The

United States District Court
Northern District of California

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 3 of 7

1

allegations must be “specific enough to give defendants notice of

2

the particular misconduct which is alleged to constitute the

3

fraud charged so that they can defend against the charge and not

4

just deny that they have done anything wrong.”

5

Weidner, 780 F.2d 727, 731 (9th Cir. 1985).

6

“state the time, place, and specific content of the false

7

representations as well as the identities of the parties to the

8

misrepresentation.”

9

Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986).

Semegen v.

The allegations must

Schreiber Distrib. Co. v. Serv-Well
“While the

10

factual circumstances of the fraud itself must be alleged with

11

particularity, the state of mind—or scienter—of the defendants

12

may be alleged generally.”

13

541, 554 (9th Cir. 2007).

14

Odom v. Microsoft Corp., 486 F.3d

When granting a motion to dismiss, the Court is generally

15

required to grant the plaintiff leave to amend, even if no

16

request to amend the pleading was made, unless amendment would be

17

futile.

18

Inc., 911 F.2d 242, 246-47 (9th Cir. 1990).

19

whether amendment would be futile, the Court examines whether the

20

complaint could be amended to cure the defect requiring dismissal

21

“without contradicting any of the allegations of [the] original

22

complaint.”

Reddy v. Litton Indus., Inc., 912 F.2d 291, 296 (9th

23

Cir. 1990).

The Court’s discretion to deny leave to amend is

24

“particularly broad” where the Court has previously granted

25

leave.

26

2002).

27
28

Cook, Perkiss & Liehe, Inc. v. N. Cal. Collection Serv.
In determining

Chodos v. West Publ’g Co., 292 F.3d 992, 1003 (9th Cir.
DISCUSSION

Defendants move to dismiss all claims against them because
6a

3

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 4 of 7

1

Plaintiff-Relator has not alleged particular acts taken by these

2

Defendants that could support a claim.1

3

to the FCA’s qui tam provisions requires allegations that “(1)

4

defendants made a claim against the United States (2) that was

5

false or fraudulent (3) with knowledge of the falsity or fraud.”

6

United States ex rel. Alfatooni v. Kitsap Physicians Serv., 314

7

F.3d 995, 1000 (9th Cir. 2002).

United States District Court
Northern District of California

8

A claim brought pursuant

In the 2AC, Plaintiff-Relator identifies each Defendant by

9

name and job title, and alleges that each “is responsible for the

10

acts and omissions set forth below constituting the submission of

11

False Claims.”

12

once more, where the complaint alleges that each Defendant:

13
14
15
16
17
18
19
20

2AC ¶¶ 10-12.

Defendants’ names are mentioned

knowingly permitted the continued presentation or caused to
be presented false claims for payment from the United States
government; knowingly made, or caused to be made, false
records or statements in order to receive payment from the
Government and act together to conspire with the other named
Defendants to have the government pay a false or fraudulent
claim . . . [and] had direct knowledge of the failure to
audit the outside coding, the failure to repay overbillings
caused by the systematic failures identified by [PlaintiffRelator] in the Neurology Department, which were present
throughout all parts of the School of Medicine and Medical
Center because of systemic failure, and failed to cause USCF
to repay the overbilled items.

21

Id. ¶¶ 143-148.

These allegations are “too vague or conclusory

22

to satisfy even Rule 8’s liberal pleading requirements,” much

23

less the more rigorous standard of Rule 9(b).

24

rel. McMasters v. Northrop Grumman Ship Sys., Inc., No. 06-cv-

United States ex

25
26
27
28

Defendants’ further arguments, such as that the 2AC
establishes bad faith that warrants a sanction of dismissal, need
not be reached to dismiss the claims against Defendants.
Accordingly, the Court addresses Defendants’ particularity
argument only.
4
7a
1

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 5 of 7

1

03881-RMW, 2006 WL 2884415, at *3 (N.D. Cal. Oct. 10, 2006)

2

(dismissing FCA claim in which plaintiff alleged that defendant

3

“made false claims for payment” and “bills for goods that it

4

builds for Navy submarines” (citation and internal quotation

5

marks omitted)).

United States District Court
Northern District of California

6

The Court must dismiss FCA claims under Rule 9(b) where a

7

relator “fails to allege with any specificity” a particular

8

defendant’s involvement in the alleged scheme.

9

rel. Serrano v. Oaks Diagnostics, Inc., 568 F. Supp. 2d 1136,

United States ex

10

1143 (C.D. Cal. 2008) (dismissing despite allegation that

11

individual defendant had ownership interest).

12

not allow a complaint to merely lump multiple defendants together

13

but requires plaintiffs to differentiate their allegations when

14

suing more than one defendant and inform each defendant

15

separately of the allegations surrounding his alleged

16

participation in the fraud.”

17

Corinthian Colls., 655 F.3d 984, 997-98 (9th Cir. 2011) (quoting

18

Swartz v. KPMG LLP, 476 F.3d 756, 764–65 (9th Cir. 2007)

19

(internal quotation marks omitted)).

20

suit involving multiple defendants, a plaintiff must, at a

21

minimum, identify the role of each defendant in the alleged

22

fraudulent scheme.”

23

quotation marks & alterations omitted); see also Corinthian

24

Colls., 655 F.3d at 998 (“The Complaint provides no additional

25

detail as to the nature of the Individual Defendants’ involvement

26

in the fraudulent acts, but simply attributes wholesale all of

27

the allegations against Corinthian to the Individual Defendants.

28

Rule 9(b) undoubtedly requires more.”); United States v. Safran

That rule “does

United States ex rel. Lee v.

“In the context of a fraud

Swartz, 476 F.3d at 764 (citation, internal

8a

5

United States District Court
Northern District of California

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 6 of 7

1

Grp., No. 15-CV-00746-LHK, 2017 WL 235197, at *7 (N.D. Cal. Jan.

2

19, 2017) (“Even if an FCA claim is adequately alleged, a

3

complaint must provide an adequate factual basis connecting that

4

FCA claim to the particular defendant.”); United States ex rel.

5

Silingo v. Mobile Med. Examination Servs., Inc., No. 13-cv-01348-

6

FMO, 2015 WL 12752552, at *9 (C.D. Cal. Sept. 29, 2015)

7

(rejecting “group-pleading” of FCA claim).

8

Notably, the Court granted Plaintiff-Relator leave to amend

9

once before and addressed the present deficiencies at a November

10

7, 2017, case management conference that preceded Plaintiff’s

11

filing of the 2AC.

12

being sued individually in their personal capacities . . . so

13

they need to have done something wrong individually and not just

14

as part of a group . . . .”).

15

failed to comply with the necessary pleading requirements.

16

Court concludes that further leave to amend would be futile.2

17

Docket No. 48 at 11 (“These are individuals

Nonetheless, Plaintiff-Relator
The

CONCLUSION

18

For the aforementioned reasons, the Court GRANTS Defendants’

19

motion to dismiss and DISMISSES WITH PREJUDICE all claims against

20

Defendants.

21

//

This Order terminates Plaintiff-Relator’s action.

22
23
24
25
26
27
28

The Court’s July 25, 2018, Order denied leave to amend and
struck the 2AC insofar as it added claims against new Defendants.
This denial was “without prejudice to Juan further amending her
complaint under Rule 15(a).” Docket No. 77. Approximately four
months have passed since the Court’s ruling and Plaintiff-Relator
has not filed a motion for leave to file another amended
complaint or otherwise indicated any intention to do so.
6
9a
2

Case 4:16-cv-04934-CW Document 92 Filed 11/26/18 Page 7 of 7

1

The Court DIRECTS the Clerk of the Court to enter judgment and

2

close this case.

Each party shall bear its own costs.

3
4

IT IS SO ORDERED.

5
6

Dated: November 26, 2018

CLAUDIA WILKEN
United States District Judge

7
8
United States District Court
Northern District of California

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
10a

7

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 1 of 34

1
2
3
4
5

SMITH PATTEN
DOW W. PATTEN (SBN: 135931)
888 S. Figueroa St., Suite 2030
Los Angeles, CA 90017
Telephone (415) 402-0084; (213) 488-1300
Facsimile (415) 520-0104
Attorney for Plaintiff-Relator
DIANA JUAN

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE NORTHERN DISTRICT OF CALIFORNIA

8
9
10

UNITED STATES OF AMERICA,
Ex rel. DIANA JUAN,

11

Plaintiff,

12
13

v.

14
15
16
17

SAM HAWGOOD; STEPHEN HAUSER;
EILEEN KAHANER; GRETA
SCHNETZLER; CLIFF SKINNER;
OLONERGAN; SHERYL VACCA, and
DOES 1 through 10, inclusive,

18
19

Defendants.

20

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: CV 16-4034-CW
SECOND AMENDED COMPLAINT FOR
FALSE CLAIMS ACT
JURY TRIAL DEMANDED

21
22
23
24
25
26
27
28

PLAINTIFF'S SECOND AMENDED COMPLAINT
PURSUANT TO 31 U.S.C. §§ 3729-3732
OF THE FEDERAL FALSE CLAIMS ACT
The United States of America, by and through qui tam relator DIANA JUAN (“PlaintiffRelator” or “JUAN”), brings this action under 31 U.S.C. § 3729, et seq., as amended (“False
Claims Act”), to recover all damages, penalties, and other remedies established by the False
Claims Act on behalf of the United States Government (“Government”).
1
Second Amended Complaint

11a

Case No. : 16-cv-4034-CW EOR-321

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 2 of 34

1

JURISDICTION AND VENUE

2
3

1.

4

U.S.C. § 1331 and 31 U.S.C. § 3732, which specifically confers jurisdiction on this Court for

5
6
7
8
9

This Court has federal question jurisdiction over all claims in this action pursuant to 28

actions brought pursuant to 31 U.S.C. §§ 3729-3730.
2.

There have been no public disclosures of the allegations or transactions contained herein

that bar jurisdiction under 31 U.S.C. § 3730(e).
3.

This Court has personal jurisdiction over the Defendants pursuant to 31 U.S.C. § 3732(a)

10

because that section authorizes nationwide service of process and because all the Defendants

11

have at least minimum contacts with the United States, and can be found in, reside, or transact or

12
13
14
15

have transacted, business in the Northern District of California.
4.

Venue is proper in this Court pursuant to 31 U.S.C. § 3730(b)(1) because all of the

Defendants have at least minimum contacts with the United States, and all the defendants can be

16

found in, reside, or transact or have transacted business in the Northern District of California.

17

5.

18

Government with a confidential written disclosure statement of material and information

19
20
21
22

Pursuant to the requirements of 31 U.S.C. § 3730(b), Plaintiff-Relator has provided the

regarding the alleged violations.
6.

The False Claims Act provides that any person who knowingly submits, or causes the

submission of, a false or fraudulent claim to the Government for payment or approval is liable

23

for a civil penalty ranging from a minimum of five thousand five hundred dollars ($5,500) to a

24

maximum of eleven thousand dollars ($11,000) for each such claim , plus three times the amount

25

of the damages sustained by the Government. The False Claims Act allows any person having

26
27
28

information about a false or fraudulent claim against the Government to bring an action for
herself and the Government , and to share in any recovery . The False Claims Act requires that
2
Second Amended Complaint

12a

Case No. : 16-cv-4034-CW EOR-322

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 3 of 34

1

the complaint be filed under seal for a minimum of 60 days (without service on the defendants

2

during that time) to allow the Government time to conduct its own investigation and to determine

3

whether to join the suit.

4

7.

5
6
7

Under Medicare, physicians, hospitals, and clinics each have specific responsibilities to

prevent false claims from being presented and are liable under the False Claims Act for their role
in the submission of false claims.

8
9

INTRODUCTION
8.

This is an action for treble damages and penalties for each false claim and each false

10
11

statement under the False Claims Act committed by the University of California San Francisco

12

School of Medicine/Medical Center throughout all its constituent departments. 31 U.S.C. §

13

3729, et seq.; see also 42 U.S.C. § 1320a-7k(d)(2); 42 U.S.C. § 1320a-7k(d)(4)(B).

14

THE PARTIES

15
16

9.

17

Administrative Director, Clinical Operations at UCSF Medical Center, and has witnessed

18

practices at Defendants which result in and constitute false claims under the False Claims Act.

19
20
21
22

10.

Plaintiff-Relator JUAN was an individual formerly employed by Defendants as

Defendant SAM HAWGOOD, is the current Chancellor and former Dean of the Medical

School of UCSF, and is responsible for the acts and omissions set forth below constituting the
submission of False Claims.

23

11.

Defendant STEPHEN HAUSER, is the Director of Weill Institute of Neurosciences and

24

former Chair of Neurology of Defendant UCSF, and is responsible for the acts and omissions set

25

forth below constituting the submission of False Claims .

26
27
28

3
Second Amended Complaint

13a

Case No. : 16-cv-4034-CW EOR-323

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 4 of 34

1

12.

Defendant EILEEN KAHANER, is the Clinical Compliance Director of UCSF, and is

2

responsible for the acts and omissions set forth below constituting the submission of False

3

Claims.

4

13.

5
6
7
8
9

Defendant GRETA SCHNETZLER, originally sued as DOE 9, is the Chief Legal

Counsel of UCSF, and is responsible for the acts and omissions set forth below constituting the
submission of False Claims.
14.

Defendant CLIFF SKINNER, originally sued as DOE 10, is the Vice President, Revenue

Cycle of UCSF Medical Center, and is responsible for the acts and omissions set forth below

10

constituting the submission of False Claims.

11

15.

12
13
14
15

Defendant THERESA O'LONERGAN, originally sued as DOE 11, is the former Director

of Compliance and Ethics at UCSF, and is responsible for the acts and omissions set forth below
constituting the submission of False Claims.
16.

Defendant SHERYL VACCA, originally sued as DOE 12, is the former Senior Vice

16

President and Chief Compliance and Audit Officer Office of Ethics, Compliance and Audit

17

Services, University of California, Office of the President, and is responsible for the acts and

18

omissions set forth below constituting the submission of False Claims.

19

OVERVIEW OF MEDICARE BILLING & REIMBURSEMENT

20
21
22
23

17.

In 1965, Congress enacted Title XVIII of the Social Security Act, which established the

Medicare Program to provide health insurance for the elderly and disabled. Medicare is a health
insurance program for: people age 65 or older; people under age 65 with certain disabilities; and

24
25
26

people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant).

27
28

4
Second Amended Complaint

14a

Case No. : 16-cv-4034-CW EOR-324

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 5 of 34

1

18.

Medicare has two parts relevant to the instant action: Part A, the Basic Plan of Hospital

2

Insurance; and Part B, which covers physicians' services and certain other medical services not

3

covered by Part A.

4

19.

5
6
7
8
9

Medicare Part A (Hospital Insurance) helps cover inpatient care in hospitals, including

critical access hospitals and skilled nursing facilities (not custodial or long-term care). Medicare
Part A also helps cover hospice care and some home health care.
20.

Under Medicare Part A, the amount paid by Medicare to a hospital for inpatient services

is based primarily on the particular diagnosed illness or condition that led to the patient's

10

admission to the hospital, or the patient's illness or condition that is principally treated by the

11

hospital; as such, the correct and appropriate coding of services and identification of patients are

12
13
14
15

a material part of compliance with the requirements of Medicare Part A.
21.

Medicare Part B (Medical Insurance) helps cover doctors' services and outpatient care. It

also covers some other medical services that Part A does not (i.e., physical and occupational

16

therapist services, etc.). Part B helps pay for covered health services and supplies when they are

17

medically necessary.

18

22.

19
20
21
22

Payments from the Medicare Program come from the Medicare Trust Fund, which is

funded through payroll deductions in addition to government contributions. Over the last 50
years, the Medicare Program has enabled the elderly and disabled to obtain necessary medical
services from medical providers throughout the United States.

23

23.

24

(“HHS”) and, specifically, the Centers for Medicare and Medicaid Services (“CMS”), an agency

25

within HHS.

26
27
28

24.

Medicare is administered by the United States Department of Health and Human Services

To bill Medicare and receive reimbursement for claims for inpatient services, a hospital

must file a provider agreement with the Secretary of HSS. 42 U.S.C. § 1395cc. The provider
5
Second Amended Complaint

15a

Case No. : 16-cv-4034-CW EOR-325

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 6 of 34

1

agreement conditions reimbursement for claims on compliance with the requirements of

2

applicable statutes and regulations.

3

25.

4

through private insurers under contract with the federal government and, in particular, CMS.

5
6
7
8
9

26.

A large portion of the day-to-day administration and operation of Medicare is managed

To assist in the administration of Medicare Part A, CMS contracts with fiscal

intermediaries. See 42 U.S.C. § 1395h. Fiscal intermediaries, typically insurance companies, are
responsible for processing and paying claims and cost reports in accordance with rules developed
by the Health Care Financing Administration (“HCFA”), now known as CMS.

10

27.

11

organizations known as “carriers” to handle payment for physicians' services in specific

12
13
14
15

Under Medicare Part B, the Government contracts with insurance companies and other

geographic areas. These private insurance companies, or “Medicare Carriers,” are responsible
for accepting Medicare claims, determining coverage, and making payments from the Medicare
Trust Fund.

16

28.

17

audit payments for Medicare services to assure that federal funds are spent according to law and

18

regulation.

19
20
21
22

29.

The principal function of both fiscal intermediaries and Medicare Carriers is to make and

Beginning in November 2006, Medicare Administrative Contractors (“MACs”) began

replacing both the Medicare Carriers and fiscal intermediaries. See Fed. Reg. 67960, 68181
(Nov. 2006). The MACs generally act on behalf of CMS to process and pay Part A and Part B

23

claims and perform administrative functions on a regional level. See 42 § C.F.R. 421.5(b).

24

30.

25

economically and only when, and to the extent, they are medically necessary. Medicare will

26
27
28

To participate in Medicare, providers must assure that their services are provided

only reimburse costs for medical services that are needed for the prevention, diagnosis, or
treatment of a specific illness or injury.
6
Second Amended Complaint

16a

Case No. : 16-cv-4034-CW EOR-326

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 7 of 34

1

31.

Additionally, providers who wish to be eligible to participate in Medicare Part A must

2

periodically submit an application to participate in the program. The application, which must be

3

signed and/or electronically submitted by an authorized representative of the provider, contains a

4

certification statement: “I agree to abide by the Medicare laws, regulations and program

5
6
7
8
9
10

instructions that apply to this provider. […] I understand that payment of a claim by Medicare is
conditioned upon the claim and the underlying transaction complying with such laws,
regulations, and program instructions (including, but not limited to, the Federal anti-kickback
statute and the Stark law), and on the provider's compliance with all applicable conditions of
participation in Medicare.”

11

MEDICARE CERTIFICATION

12
13

32.

14

annually a form, CMS-2552, more commonly known as the hospital cost report. Cost reports are

15

the final claims that a provider submits to the fiscal intermediary or MAC for items and services

16

As a prerequisite to payment under Medicare Part A, CMS requires hospitals to submit

rendered to Medicare beneficiaries.

17
18

33.

After the end of each hospital's fiscal year, the hospital files its hospital cost report with

19

the fiscal intermediary or MAC, stating the amount of Part A reimbursement the provider claims

20

it is due for the year. See 42 U.S.C. § 1395g(a); 42 C.F.R. § 413.20; see also 42 C.F.R.

21

§ 405.1801(b)(1). Medicare relies upon the hospital cost report to determine whether the

22
23

provider is entitled to more reimbursement than already received through interim payments, or
whether the provider had been overpaid and must reimburse Medicare. See 42 C.F.R.

24
25

§§ 405.1803, 413.60, and 413.64(f)(1).

26

34.

During the relevant time period, Medicare Part A payments for hospital services were

27

determined by the claims submitted by the provider for particular patient services during the

28

course of the fiscal year. On the hospital cost report, this Medicare liability for services is then
7
Second Amended Complaint

17a

Case No. : 16-cv-4034-CW EOR-327

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 8 of 34

1

totaled with any other Medicare Part A liabilities to the provider. This total determines

2

Medicare's true liability for services rendered to Medicare Part A beneficiaries during the course

3

of a fiscal year. From this sum, the payments made to the provider during the year are subtracted

4

to determine the amount due to the Medicare Part A program or the amount due to the provider.

5
6
7
8
9

35.

Under the rules applicable at all relevant times, Medicare, through its fiscal

intermediaries and MACs, had the right to audit the hospital cost reports and financial
representations made by Defendants to ensure their accuracy and preserve the integrity of the
Medicare Trust Funds. This right includes the right to make retroactive adjustments to hospital

10

cost reports previously submitted by a provider if any overpayments have been made. See 42

11

C.F.R. § 413.64(f).

12
13
14
15

36.

Every hospital cost report contains a “Certification” that must be signed by the chief

administrator of the provider or a responsible designee of the administrator.
37.

For all relevant years, the responsible designee for Defendants' Medical Center was

16

required to certify, and did certify, in pertinent part: “to the best of my knowledge and belief,

17

[the hospital cost report] and statement are true, correct, complete, and prepared from the books

18

and records of the provider in accordance with applicable instructions, except as noted. I further

19
20
21
22

certify that I am familiar with the laws and regulations regarding the provision of health care
services, and that the services identified in this cost report were provided in compliance with
such laws and regulations.”

23

38.

24

following sentence: “Misrepresentation or falsification of any information contained in this cost

25

report may be punishable by criminal, civil and administrative action, fine and/or imprisonment

26

For the entire period at issue, the hospital cost report certification page also included the

under federal law. Furthermore, if services identified in this report were provided or procured

27
28

8
Second Amended Complaint

18a

Case No. : 16-cv-4034-CW EOR-328

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 9 of 34

1

through the payment directly or indirectly of a kickback or were otherwise illegal, criminal, civil

2

and administrative action, fines and/or imprisonment may result.”

3

39.

4

the cost information contained in the report is true and accurate; (2) correct, i.e., that the provider

5
6
7
8
9

Thus, the provider must certify that the filed hospital cost report is (1) truthful, i.e., that

is entitled to reimbursement for the reported costs in accordance with applicable instructions; (3)
complete, i.e., that the hospital cost report is based upon all information known to the provider;
and (4) that the services provided in the cost report were billed in compliance with applicable
laws and regulations, including Medicare and Medicaid laws and regulations.

10

40.

11

among other things, to the certification quoted above.

12
13
14
15

41.

For each of the years at issue, UCSF Medical Center submitted cost reports attesting,

A hospital is required to disclose all known errors and omissions in its claims for

Medicare Part A reimbursement (including its cost reports).
42.

For each of the years at issue, UCSF submitted cost reports attesting, among other things,

16

to the certification quoted above.

17

43.

18

Medicare Part A reimbursement (including its cost reports).

19
20
21

44.

h. Management is responsible for establishing and maintaining an effective
internal control structure to minimize organizational risk for inappropriate billing
and collection activities. Internal controls include, but are not limited to, effective
training and educational programs and periodic auditing. Procedures to evaluate
and monitor coding and billing must be implemented and reviewed on an ongoing
basis.

23
24
25

27
28

UCSF's Code of Conduct, Policy No. 1.20.09, applicable to all Individual Defendants

herein, provides in pertinent part:

22

26

A hospital is required to disclose all known errors and omissions in its claims for

45.

UCSF's governing structure includes the UCSF Medical Center Compliance

Committee, which oversees implementation of the Clinical Enterprise Compliance
9
Second Amended Complaint

19a

Case No. : 16-cv-4034-CW EOR-329

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 10 of 34

1

Program at UCSF Medical Center and regularly reports to the Clinical Enterprise

2

Compliance Committee. Members of the committees include leaders from Medical

3

Center management, Audit Services, and the Clinical Enterprise Compliance Program.

4

46.

5
6
7
8
9

The Director of the Clinical Enterprise Compliance Program (CECP) (Eileenevaluate and

Kahaner) is responsible for daily operations of the CECP. The Director reports to the
UCSF Chief Ethics and Compliance Officer (Theresa O’Lonergan), who reports to the
UCSF Executive Vice Chancellor and Provost. The Director is supported by Audit
Services, Legal Affairs, ad hoc operations committees, and other resources as needed to

10

implement the program.

11

47.

12
13
14
15

At all times herein, upon information and belief, each of the individual Defendants had

knowledge of the false claims, and the ability to correct some or all of the systemic failures
throughout all departments at UCS that led to the submission of false claims, the ability to repay
overbillings or misbillings previously identified, and consciously and willfully chose not to do

16

so.

17

48.

18

knowledge of the false claims, and the ability to correct some or all of the systemic failures

19
20
21

At all times herein, upon information and belief, each of the individual Defendants had

throughout all departments at UCSF that led to the submission of false claims, the ability to halt
or correct the required recertification set forth above, and willfully chose not to do so.

22

OVERVIEW OF MEDICAID BILLING & REIMBURSEMENT

23
24

49.

25

to the Social Security Act. The Medicaid program aids the states in furnishing medical assistance

26
27
28

Medicaid was created in 1965, at the same time as Medicare, when Title XIX was added

to eligible needy persons, including indigent and disabled persons. Medicaid is the largest source
of funding for medical and health-related services for America's poorest people.
10
Second Amended Complaint

20a

Case No. : 16-cv-4034-CW EOR-330

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 11 of 34

1

50.

Medicaid is a cooperative federal-state public-assistance program, which is administered

2

by the states. In California, the Medicaid program is called Medi-Cal and is administered by the

3

California Department of Health Care Services (“DHCS”), a department within the California

4

Health and Human Services Agency (“CHHS”).

5
6
7
8
9

51.

Funding for Medicaid is shared between the Government and those state governments

that choose to participate in the program. Federal support for Medicaid is significant. For
example, the Government provides 50% of the funding for Medi-Cal, while the State of
California funds the other half.

10

52.

11

certain specified minimum criteria for coverage and payment of claims. 42 U.S.C. §§ 1396,

12
13
14
15

The Medicaid statute requires each participating state to implement a plan containing

1396a(a)(13), (30)(A).
53.

Like Medicare Part B, Medi-Cal pays providers for services actually rendered, as

represented on the claim form, and services that are reasonable and medically necessary.

16

54.

By becoming a participating provider in the Medi-Cal program, UCSF Medical Center

17

agreed to abide by all laws, regulations, and procedures applicable to that program, including

18

those governing reimbursement.

19

CONDITIONS OF PARTICIPATION

20
21
22
23

55.

In order to obtain reimbursement from Medicare or Medi-Cal for inpatient and outpatient

diagnostic procedures like magnetic resonance imaging (“MRIs”) and electroencephalograms
(“EEGs”), a provider must comply with a strict statutory and regulatory scheme administered by

24
25

DHCS (for Medi-Cal) and CMS (for Medicare). In order to receive reimbursement from the

26

Government, providers must comply with numerous “Conditions of Participation” that define the

27

procedures and standards of care which must be followed in the course of treatment.

28

11
Second Amended Complaint

21a

Case No. : 16-cv-4034-CW EOR-331

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 12 of 34

1

56.

Compliance with the Conditions of Participation is material to the decision by both the

2

Government and the State of California to pay Medicare or Medi-Cal claims, and providers

3

implicitly certify that they have complied with these Conditions of Participation each time they

4

present a claim for goods and services.

5
6
7
8
9

57.

Participation in Medi-Cal requires meeting all requirements for participation in Medicare.

42 C.F.R. § 482.1(a)(5).
58.

As a condition of participation in Medicare and Medi-Cal, and thus as a condition for

receiving reimbursement for medical services, a hospital “must be in compliance with applicable

10

Federal laws related to the health and safety of patients.” 42 C.F.R. § 482.11(a). The hospital

11

must also “assure that personnel are licensed or meet other applicable standards that are required

12
13
14
15

by State or local laws.” 42 C.F.R. § 482.11(c).
59.

As a condition of participation in Medicare and Medi-Cal, and thus as a condition for

receiving reimbursement for medical services, a hospital must have “an effective governing body

16

that is legally responsible for the conduct of the hospital.” 42 C.F.R. § 482.12.

17

60.

18

condition for receiving reimbursement for medical services, the “provider, supplier, or

19
20
21
22
23
24
25
26
27
28

Additionally, as a condition of participation in Medicare and Medi-Cal, and thus as a

beneficiary, as appropriate, must furnish to the intermediary or carrier sufficient information to
determine whether payment is due and the amount of payment.” 42 C.F.R. § 424.5(a)(6).
61.

The False Claims Act provides, in pertinent part, that any person who:
(A) knowingly presents, or causes to be presented, a false or fraudulent claim for
payment or approval;
(B) knowingly makes, uses, or causes to be made or used, a false record or statement
material to a false or fraudulent claim;
(C) conspires to commit a violation of [inter alia, subparagraphs (A), (B), or (G)];
[…]
(G) knowingly makes, uses, or causes to be made or used, a false record or statement
material to an obligation to pay or transmit money or property to the Government, or
12

Second Amended Complaint

22a

Case No. : 16-cv-4034-CW EOR-332

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 13 of 34

knowingly conceals or knowingly and improperly avoids or decreases an obligation to
pay or transmit money or property to the Government,

1
2

is liable to the United States Government for a civil penalty of not less than
$5,000 and not more than $ 10,000, […] plus 3 times the amount of damages which the
Government sustains because of the act of that person.

3
4
5

31 U.S.C. § 3729(a)(1)(A)-(C), (G). The False Claims Act thereafter defines the requisite

6

scienter for a violation:

7

[T]he terms “knowing” and “knowingly”--

8

(A) mean that a person, with respect to information--

9

(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth or falsity of the information; or
(iii) acts in reckless disregard of the truth or falsity of the information; and

10
11

(B) require no proof of specific intent to defraud;

12
13

31 U.S.C. § 3729(b)(1)(A)-(B). Section 6402(a) of the Patient Protection and Affordable Care

14

Act of 2010 (“ACA”) amended the Social Security Act by adding a new provision that addresses

15

what constitutes an “overpayment” under the False Claims Act in the context of a federal health

16

care program. Under this section, an “overpayment” is defined as “any funds that a person

17
18

receives or retains under Title XVIII or XIX […] to which the person, after applicable

19

reconciliation, is not entitled.” 42 U.S.C. § 1320a-7k(d)(4)(B). In addition, an “overpayment

20

must be reported and returned” within “60 days after the date on which the overpayment was

21

identified.” 42 U.S.C. § 1320a-7k(d)(2).

22
23

62.

Failure to return any overpayment constitutes a reverse false claim actionable under the

False Claims Act. 31 U.S.C. § 3729(a)(1)(G).

24

FACTUAL ALLEGATIONS OF FALSE CLAIMS ACT VIOLATIONS

25
26

63.

In 2003, JUAN joined the Department of Neurology as the Practice Manager of

27

Neurology Outpatient Practice. She was responsible for oversight of the efficient organization

28

and operation of the clerical and reception activities of the Neurology Outpatient Practice. This
13
Second Amended Complaint

23a

Case No. : 16-cv-4034-CW EOR-333

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 14 of 34

1

included managing clerical staff, developing and maintaining clerical procedures, proposing

2

operational policy improvements, and monitoring the following: the patient appointment system

3

and physician clinical schedules, communications systems, database entry, medical record

4

custody, patient reception, and phone systems (including voicemail systems).

5
6
7
8
9

64.

Additionally, in collaboration with the Neurology Clinical Services Manager, Director of

Administration, and Vice-Chair, JUAN analyzed outpatient practice financial operations and
made policy and procedure recommendations. She also assisted in the monitoring and
controlling cost center expenditures, reconciled expenditures to the general ledger, and

10

summarized activity to the Clinical Services Manager.

11

65.

12
13
14
15

In 2007, JUAN earned a promotion to the position of Administrator Director, Clinical

Operations position for the Neurology Department. In this position, she managed plans and
directed the clinical operations and resources of the Department of Neurology's Inpatient and
Outpatient Services. She was responsible for the inpatient neurology stroke/intensive care unit

16

("ICU''), epilepsy, and ward-consult services, the Ambulatory Care Center Clinics on the eighth

17

floor, and the Mt. Zion Headache Clinic . This included all clinical and business operations, as

18

well as financial, human, and other resources for several subspecialities in the Neurology

19
20
21
22

Clinical Practices . ruAN was responsible for the administration of all patient activities , ensuring
that the strategic goals were met for the delivery of high-quality, cost-effective health care
services in alignment with Medical Center, federal, state, and local laws and regulations.

23

66.

24

with “provider dictations” because there were complaints from referring physicians that they

25

were not receiving them. The staff manually reconciled every list to ensure that there was

26
27
28

Between 2007 and 2009, JUAN tasked her staff with investigating and tracking problems

corresponding documentation. The original hypothesis as to the source of the problem was that
the Health Information Management Systems (“HIMS”) had operational issues, but JUAN and
14
Second Amended Complaint

24a

Case No. : 16-cv-4034-CW EOR-334

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 15 of 34

1

her staff soon discovered that there was a different issue.

2

67.

3

of Neurology: providers were not generating reports after a patient visit. Various dispositions

4

include: (i) reports not being generated in a timely manner to referring physicians; (ii) patient

5
6
7
8
9

JUAN and her staff identified systemic and long-standing issues in UCSF's Department

visits occurring with no reports; and (iii) instances of illegible medical notes. In response, JUAN
and her staff reported their findings to departmental leadership, Dr. John Engstrom, M.D. (“Dr.
Engstrom”) and Dr. Stephen Hauser, M.D. (“Dr. Hauser”), to improve the physician
documentation.

10

68.

11

reimbursement by CMS without the necessary legible reports submitted to referring physicians.

12
13
14
15

69.

Upon information and belief, numerous encounters or patient visits were submitted for

These issues have remained ongoing despite their disclosure to the leadership of UCSF's

Department of Neurology for many years. There is a significant likelihood that the abovedescribed fraud has been committed prior to 2007, considering that there was no mechanism in

16

place to ensure that proper documentation was synchronized with submissions to Medicare and

17

Medi-Cal. Because this issue is not unique to the Department of Neurology, there is a significant

18

probability that this fraud was also occurring in other clinical departments at UCSF.

19
20
21
22

70.

Prior to 2009, documentation for outpatient patient visits were handwritten on paper

charts, dictated into a database called “STOR,” some combination of both, or none of the above
(and documentation was unsynchronized to the billing of these visits). Billing staff would

23

receive submitted paper copies of encounter forms and manually enter the information into the

24

“IDX” system created by the IDX Systems Corporation, a healthcare software technology vendor

25

used by UCSF Medical Center for scheduling, billing and collection, etc.

26
27
28

71.

As the Administrative Director of UCSF Clinical Operations, JUAN was responsible for

all administrative aspects of the Department of Neurology, including but not limited to internal
15
Second Amended Complaint

25a

Case No. : 16-cv-4034-CW EOR-335

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 16 of 34

1

controls, billing, and staffing. Beginning in early 2009, after her promotion to this position,

2

JUAN uncovered inconsistencies and inefficiencies in the billing practices within the

3

Department of Neurology.

4

72.

5
6
7
8
9

Specifically, JUAN observed that charges were missing, that UCSF-submitted billings for

reimbursement by Medicare and other payers were incorrectly coded based on the
documentation, and that UCSF's billings lacked the proper documentation required by Medicare.
JUAN immediately informed Dr. Engstrom, the Chief of Clinical Services, and Jane Czech
(“Ms. Czech”), the Director of Administration, about these major billing discrepancies. The

10

Chair of Neurology, Dr. Hauser, also had known or been made aware of these billing and

11

compliance issues. Over the next few months, JUAN and her team made a significant financial

12
13
14
15

turnaround for clinical services, working to fix the long-standing billing issues.
73.

JUAN proposed that the Department of Neurology create a dedicated billing unit, which

Ms. Czech agreed on or around April 28, 2009 to authorize her to implement.

16

74.

17

turnaround” and agreed with JUAN on a new leadership structure that would enable JUAN to

18

focus on the billing and collections to further enhance and sustain the achievements she and her

19
20
21
22

Ms. Czech recognized JUAN for her role in the “[Neurology Department's] financial

team had already made.
75.

For example, a snapshot as of November 24, 2009 indicated there were 775 unsigned

letters, 286 greater than 14 days. This statistic, as dismal as it was, represented a drastic

23

improvement of the pre-existing problem prior to the project initiated by JUAN in 2007.

24

76.

25

pulled into the tail end of Medicare settlement discussions with UCSF representatives resulting

26
27
28

In or about 2009, JUAN, as the new Administrative Director of Clinical Operations, was

from a Medicare audit for improper billing practices perpetrated by the Memory and Aging
Center within the Department of Neurology. JUAN assisted that division in securing a pre16
Second Amended Complaint

26a

Case No. : 16-cv-4034-CW EOR-336

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 17 of 34

1

submission accuracy score of 95% Pre-Bill Quality Review (“PBQR”) with Medicare and other

2

payers. The Memory and Aging Center was eventually fined approximately one million dollars

3

($1,000,000.00) by Medicare for misbillings. As part of that settlement, the Department of

4

Neurology was placed on a PBQR that required 95% compliance prior to the submission of a

5
6
7
8
9

billing.
77.

UCSF uses five-digit Current Procedural Terminology Codes (“CPTs”) to describe and

categorize physician-encounters in order to facilitate billing with payors, such as CMS and
private insurance companies. Each billable procedure has an applicable CPT code.

10

78.

11

patient encounters become CPTs. Different E&M codes apply to different types of physician-

12
13
14
15

The Evaluation and Management (“E&M”) coding process determines which physician-

patient encounters, such as office visits or hospital visits. Within each type of encounter, the
CPT code methodology provides for different levels of care, which CMS reimburses at different
rates. For example, the “99214” code may be used to charge for an office visit with an

16

established patient. There are five levels of care for this type of encounter. The “99214” code is

17

often referred to as a “level 4” office visit because the code ends in “4” and also because it is the

18

fourth “level of care” for that type of visit. (The code “99215” signifies the fifth and highest

19
20
21
22

level of care.) Each physician-patient encounter may be viewed as a unique procedure which
requires specific documentation.
79.

In light of the substantial fine it incurred for Medicare misbilling, UCSF was clearly on

23

notice that its internal systems were unable to comply with Medicare's certification procedures,

24

at least as early as 2009, and upon information and belief, earlier to that time.

25

80.

26
27
28

In June 2010, the University of California, Office of the President engaged FTI

Consulting (“FTI”), which conducted a probe audit of several clinical departments to determine
the accuracy of the line item E&M code selection based upon clinical documentation to support
17
Second Amended Complaint

27a

Case No. : 16-cv-4034-CW EOR-337

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 18 of 34

1

payments received from CMS for Medicare-facility-fee claims for the time period starting on

2

January 1, 2007 and ending December 31, 2009. The probe audit revealed a very high error rate

3

in over-coding and overbilling greatly exceeding the under-coding and underbilling to both

4

private insurers and Medicare.

5
6
7
8
9

81.

As a result of the audit, UCSF's School of Medicine mandated that the Department of

Neurology and other clinical departments outsource the E&M process—i.e., reviewing patient
admissions and encounters, charts, and notes to apply the correct CPT codes—and discontinue
the practice of relying on individual physicians to apply the appropriate CPT codes to their

10

physician-patient encounters. However, at no time did UCSF or any of its departments

11

implement a Quality Assurance policy for the monitoring the external coders.

12
13
14
15

82.

During this time, JUAN endeavored to ensure that the new process of utilizing external

coders was compliant with Medicare coding requirements. Specifically, JUAN inquired as to
what mechanisms would be instituted to validate the coding accuracy. This issue was raised with

16

Department of Neurology leadership, UCSF's Director of Compliance, and other leadership from

17

the School of Medicine. JUAN uncovered significant coding inaccuracies with some of the

18

coding vendors, and as a result, she commissioned Aviacode, a neurology vendor, to complete an

19
20
21
22

audit in 2011. One audit of 309 physician notes revealed that 4% were overcoded, with an
accuracy rate of 59.2%. Overcoding occurs when the wrong code is used, resulting in excess
billing and revenue either to Medicare or to private insurers and health plans.

23

83.

24

accuracy rate of 41.9%. JUAN escalated these results to the Department of Neurology's

25

leadership, Ms. Czech and Dr. Engstrom, as well as the Director of Revenue Management, Kevin

26
27
28

Another audit of 294 total documents revealed that 22.9% were overcoded, with an

McLaren (“Mr. McLaren”). Dr. Hauser was also aware of these misbilling issues. In response,
JUAN was chastised by Mr. McLaren for doing an audit during a “settlement” period with FTI.
18
Second Amended Complaint

28a

Case No. : 16-cv-4034-CW EOR-338

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 19 of 34

1

84.

The individual Defendants, who were employed at the time, upon information and belief,

2

knew as early as 2009 and likely earlier, of the substantial over-coding which continued to occur

3

after the FTI audit, that the over-coding resulted in overpayments under Medicare, and did not

4

take action to self-report the overpayments to Medicare.

5
6
7
8
9

85.

Each individual Defendant, knew as early as 2009 an likely earlier, that UCSF continued

to certify its compliance with Medicare rules and regulations, and knew at the time of the
certification, that UCSF had not self-disclosed overpayments which were the result of the
systemic overbilling set forth above, and did not take action to halt or correct the certification.

10

86.

11

and inaccurate billing, and did not self-report the inaccuracies and repay overbillings to CMS or

12
13
14
15

Upon information and belief, UCSF took no action to correct the above-stated overbilling

any other entity. Upon information and belief, UCSF has caused no repayment or corrections to
issue.
87.

JUAN’s efforts to resolve the improper billing practices throughout the foregoing years

16

resulted in workplace retaliation in the form of a de facto demotion, the diminishment of her

17

authority, and the diminishment of the health and safety of the workplace. JUAN nonetheless

18

continued to point out problems with the billing practices.

19
20
21
22

88.

On June 28, 2013, Dr. Engstrom raised an issue, via e-mail, with the Department of

Neurology's leadership later added to the thread, regarding the inability of the so-called “ApeX”
electronic medical record system to bill coherently for epilepsy telemetry services managed by

23

Christopher Holland (“Mr. Holland”).

24

89.

25

summarizing the various issues “that are still occurring from our audit of all charges filed from

26
27
28

On July 30, 2013, JUAN e-mailed the leadership of the Department of Neurology a chart

January 2013 to June 2013.” JUAN thereafter asked for help in resolving “the multi-layer
problems, especially the build,” referring to the APeX system. (Id.) The chart shows there were:
19
Second Amended Complaint

29a

Case No. : 16-cv-4034-CW EOR-339

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 20 of 34

•

1

•
•
•

2
3
4

•

5
6

90.

228 instances of mismatch coding for Professional Billing (“PB”) and Hospital Billing
(“HB”);
19 instances of duplicate entries for both HB and PB, respectively;
3 instances of duplicate entries and mismatched coding for HB and PB charges;
126 instances of missing PB Charges per the Charge Router Reconciliation Report
(“CRRR”); and
119 instances of missing HB Charges per the CRRR.
The chart revealed that the average PB charge per encounter was one thousand two

7

hundred seventeen dollars ($1,217.00), and the average HB charge was nine thousand one

8

hundred twenty-seven dollars ($9,127.00), resulting in a material misstatement of the services

9

billed to Medicare, private insurers, and health plans.

10
11
12
13

91.

That same day, July 30, 2013, then-Financial Applications Director of Clinical

Information Systems (currently Vice President, Clinical Systems) Heidi Collins (“Ms. Collins”)
responded to JUAN’s chart summary, opining that the underlying issue was that the professional

14

and technical fees are triggered separately, due to historical lag issues on the professional fees

15

(“pro-fee”) side. UCSF, however, took no action to identify the billing errors or correct any

16

incorrect submissions to Medicare.

17
18
19
20

92.

On August 2, 2013, JUAN responded to Collins' take on the issue, with all of the

Department of Neurology senior management included in the e-mail. JUAN acknowledged that
there is historically a charge lag on the pro-fee side due to the “correct coding initiative.”

21

However, in reviewing this small sample, JUAN and her team uncovered significant compliance

22

issues with charges being triggered separately, which must be retrospectively corrected with the

23

Compliance Department's assistance.

24
25
26
27
28

93.

To date, the inaccurate billings identified in JUAN’s July 30, 2013 chart have not all been

corrected by UCSF and not within the 60 days after these claims were identified.
94.

The problem with professional and technical fees being triggered separately, impacts not

only epilepsy telemetry service, but also many other service areas at UCSF.
20
Second Amended Complaint

30a

Case No. : 16-cv-4034-CW EOR-340

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 21 of 34

1

95.

On January 21, 2015, in an e-mail addressed to leadership of the Department of

2

Neurology, JUAN again pointed out how charge-entry lag was an ongoing issue within the

3

department, and that the Faculty Practice Organization (“FPO”) should establish guidelines.

4

96.

5
6
7
8
9

On April 7, 2015, JUAN alerted the Compliance Department that patients who had

previously been treated by UCSF were being improperly coded as new patients . Prior to the
implementation of APeX electronic medical record system, there were Ingenix Claims Manager
("ICM'') edits put in place so that the Department of Neurology would catch these up coding
claims prior to submission in the IDX system. Since the implementation of Apex Electronic

10

Medical Record, however, UCSF's Medical Group Billing Department ("MGBS") decided to not

11

institute the edits, citing the rationale of utilizing three years' worth of data before implementing

12
13
14
15

the edits. Without informing any clinical departments of this decision, including the Department
of Neurology, that this edit was not in place, follow-up patients were erroneously billed as new
patients, with a resulting overbilling to Medicare and Medi-Cal reimbursements.

16

97.

17

Center and the Office of Inspector General for the Department of Health and Human Services

18

entered into a settlement agreement covering the period of July 1, 2010 to December 31, 2013

19
20
21
22

On or about September 28, 2016, after the filing of the present action, UCSF Medical

concerning the Evaluation and Management issue set forth above. Plaintiff-Relator does not
claim the charges—which are the subject of that settlement in this action—however, the issue
both predated and post-dated the settlement term, and as to such charges, Plaintiff-Relator

23

continues to seek recovery herein.

24

98.

25

UCSF physicians as a registered inpatient or outpatient, or by the hospital within the past three

26
27
28

The failure to determine whether a given patient has previously been seen and treated by

years, has resulted in numerous instances of so-called “upcoding,” where UCSF bills Medicare
for reimbursement for allegedly new patients, when the correct billing would be that they are
21
Second Amended Complaint

31a

Case No. : 16-cv-4034-CW EOR-341

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 22 of 34

1

follow-up patients pursuant to 73 Fed. Reg. 68679 (November 18, 2008). The Office of the

2

Inspector General (“OIG”) published this particular issue to investigate in the Fiscal Year 2015

3

Workplan. UC and UCSF were clearly on notice by the Office of Inspector General.

4

99.

5
6
7
8
9

Medicare recognizes “new patient” to mean a patient who has not received any

professional services from the physician or physician group practice (same taxonomy) within the
previous three-year time period. (Publication 100-04, Chapter 12, Section 30.6.7 of the
Medicare Claims Processing Manual.) For example, Medicare only recognizes two taxonomies
related to Neurology: specifically, provider taxonomy codes “2084N0400X” and

10

“2084N0402X.”

11

100.

12
13
14
15

On September 18, 2015, JUAN alerted the Compliance Department regarding a finding

of incorrect billing in the Department of Neurodiagnostics, managed by Mr. Holland. This
service was built similar to the EEG telemetry service with the pro and tech fee being triggered
separately. JUAN provided a chart summarizing the “myriad of misbilling issues similar to the

16

systematic issue we uncovered in the EEG billing” for one provider from 2011 to 2015. The

17

chart shows there were:

18
19
20
21
22
23
24
25
26
27
28

•
•
•
•
101.

73 instances of no HB charges;
34 instances of no PB charges;
17 instances of mismatched codes; and
14 instances of incorrect dates on HB or PB charges.
On September 24, 2015, JUAN alerted the Compliance Department again regarding

another improper billing of another provider from 2012 to 2015 from the UCSF
Neurodiagnostics Center. JUAN provided a chart summarizing the issues for the provider from
2012 to 2015. The chart shows there were:
•
•
•
•

51 instances of no HB charges;
8 instances of no PB charges;
5 instances of mismatched codes;
3 instances of incorrect dates on HB or PB charges; and
22

Second Amended Complaint

32a

Case No. : 16-cv-4034-CW EOR-342

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 23 of 34

1

•

10 instances of duplicate coding.

2

102.

3

substantial deficiencies triggering UCSF's duties under Medicare certification to promptly self-

4

report and correct overpayments. The e-mail cavalierly deprecated the issue: “Is it worth

5

JUAN’s supervisor, David Morgan, blatantly dismissed her complaints identifying

spending time on these issues that are more than 12 months old.”

6
7
8
9
10
11

ECFMG J-1 MISBILLING VIOLATING FEDERAL REGULATIONS
103.

UCSF is a sponsor of foreign national physicians who seek entry into U.S. programs of

graduate medical education or training on the J-1 visa, a temporary nonimmigrant visa reserved
for participants in the Exchange Visitor Program, sponsored by the Educational Commission for

12

Foreign Medical Graduates (“ECFMG”). Upon information and belief, UCSF uses numerous J-1

13

physicians throughout all departments, not just within the Department of Neurology.

14

104.

15
16
17
18

In accordance with the federal J-1 regulations, J-1 physicians are considered to be

trainees and are therefore prohibited from independent billing.
105.

On March 12, 2012, JUAN raised the issue of a foreign national physician in the

Department of Neurology who was incorrectly categorized in the credentialing system as a

19

Clinical Instructor, which allowed him to bill independently in the APeX system without an

20

attending co-signature from a domestic physician. JUAN endeavored to clarify UCSF billing

21

practices for the classification of physician trainees with J-1s at UCSF, and was advised

22
23
24
25

incorrectly to obtain a “waiver” for them to bill independently by Mr. McLaren. Further, the
Office of Graduate Medical Education advised JUAN that this practice was permitted as part of
the non-ACGME fellowship scope of training programs for UCSF. JUAN sought guidance

26

directly from ECFMG, which apprised her on a phone call that this was not a permitted billing

27

practice.

28

23
Second Amended Complaint

33a

Case No. : 16-cv-4034-CW EOR-343

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 24 of 34

1

106.

On March 26, 2012, JUAN immediately alerted Dr. Engstrom, as well as the UCSF

2

Office of Compliance and Legal Affairs in an e-mail correspondence to Director of Compliance

3

Eileen Kahaner (“Ms. Kahaner”) and Legal Counsel Ann Sparkman (“Ms. Sparkman”),

4

explaining this systemic issue. Upon her investigation, Ms. Kahaner informed the Department of

5
6
7
8
9

Neurology that the above-described practice was not allowable, and that she would be issuing a
global update; however, upon information and belief, UCSF, through its agents, the individual
Defendants, has taken no corrective action in any of the departments which have employed or
continue to employ J-1 visa holders, and has not returned any overpayment on claims from

10

Medicare and other government payers billed by the J-1 ECFMG trainee physicians.

11

107.

12
13
14
15

Based upon the multiple complaints and issues raised by JUAN, and the blatant failure to

act and remedy the foregoing overbilling by the Department of Neurology and the Department of
Compliance, Defendants have acted with reckless disregard for its compliance with the laws
governing the submission of claims to CMS.

16

FALSE CERTIFICATION

17
18

108.

UCSF explicitly undertook to comply with a law, rule, and regulation that was implicated

19

by the certification.

20

109.

21

implicated in the submission of a claim.

22
23

110.

Defendant explicitly undertook to comply with a law, rule, and regulation that was

As set forth above, UCSF submitted claims for Medicare reimbursement that did not

comply with the law, rule, and regulation upon which certification was made. Each of the

24
25

individual Defendants, upon information and belief, was aware of the submissions, had power to

26

correct such submissions, and willingly failed to do so.

27

111.

28

compliance with the law or regulation. Each of the individual Defendants, upon information and

As set forth above, UCSF submitted the claims even though it knew it was not in

24
Second Amended Complaint

34a

Case No. : 16-cv-4034-CW EOR-344

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 25 of 34

1

belief, was aware of the submissions, had power to correct such submissions, and willingly failed

2

to do so.

3

112.

4

over-coded by virtue of the fine of one million dollars ($1,000,000.00) imposed by Medicare

5
6
7
8
9

UCSF knew that the claims it submitted for Medicare reimbursement were overbilled and

upon the Department of Neurology. Each of the individual Defendants, upon information and
belief, was aware of the submissions, had power to correct such submissions throughout the
various departments over which they had control, and willingly failed to do so.
113.

UCSF knew that the overbillings set forth above were in an amount that materially

10

affected UCSF's certification under Medicare. Each of the individual Defendants, upon

11

information and belief, was aware of the submissions, had power to correct such submissions

12
13
14
15

throughout the Departments over which they had control, and willingly failed to do so.
114.

UCSF and the individual Defendants failed to report the overbilling and over-coding and

withheld information about its non-compliance with material requirements of certification.

16

QUANTUM OF MONETARY HARM TO THE GOVERNMENT

17
18

115.

The scope of UCSF billings submitted for Medicare and Medicaid reimbursement is in

19

the millions of dollars annually.

20

116.

21

whole had the following revenues from Medicare and Medi-Cal:

22

According to the Office of the Controller, for fiscal year 2015, UCSF Medical Center as a

"Total Medical Center revenues increased $299 million, or 13 percent, to $2.7 billion
in 2015. The increase was primarily due to improved inpatient and outpatient
volumes, an increase in the complexity of cases, and a slight change in the mix of
payors to those with better contracted rates. The table below summarizes the revenue
sources of the Medical Center:"

23
24
25
26
27

117.

In 2015, according to the Office of the Controller, Medicare billings comprised 18.3% of

28

the Medical Center's revenue, and Medi-Cal comprised 7.7% of total billings. As a result, over
25
Second Amended Complaint

35a

Case No. : 16-cv-4034-CW EOR-345

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 26 of 34

1
2
3
4
5
6
7
8

one-fourth of Medical Center revenue derived from Medicare and Medi-Cal reimbursements.
118.

Based on the overbillings identified by UCSF internally, as set forth above, assuming that

discovery identifies a similar rate of overbilling of 8%, then the quantum of harm to the
Government from UCSF overbilling to Medicare is $39.44 million dollars in fiscal year 2015
alone.
119. According to the Office of the Controller, for fiscal year 2013, UCSF Medical Center as a
whole had the following revenues from Medicare and Medi-Cal:
"Total Medical Center revenues increased $189 million, or 10 percent, to $2.16
billion in 2013. The increase was primarily due to improved inpatient and
outpatient reimbursement rates, an increase in the complexity of cases, and a slight
change in the mix of payors to those with better contracted rates. The table below
summarizes the revenue sources of the Medical Center:"

9
10
11
12
13

120.

14

the Medical Center's revenue, and Medi-Cal comprised 7.5% of total billings. As a result, over

15

one-fourth of Medical Center revenue derived from Medicare and Medi-Cal reimbursements.

16
17
18
19

121.

In 2013, according to the Office of the Controller, Medicare billings comprised 19.2% of

Based on the overbillings identified by UCSF internally, as set forth above, assuming that

discovery identifies a similar rate of overbilling of 8%, then the quantum of harm to the
Government from UCSF overbilling to Medicare is $33.28 million dollars in fiscal year 2013

20

alone.

21

122.

22

whole had the following revenues of approximately $367 million dollars ($367,000,000) from

23
24
25
26

According to the Office of the Controller, for fiscal year 2011, UCSF Medical Center as a

Medicare and $216 million dollars ($216,000,000) from Medi-Cal. The Medical Center's total
revenue for fiscal year 2011 was approximately $1.923 billion dollars ($1,923,000,000).
123.

In 2011, according to the Office of the Controller, Medicare billings comprised 19.08%

27

of the Medical Center's revenue, and Medi-Cal comprised 11.2% of total billings. As a result,

28

about 30% of Medical Center revenue derived from Medicare and Medi-Cal reimbursements.
26
Second Amended Complaint

36a

Case No. : 16-cv-4034-CW EOR-346

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 27 of 34

1

124.

Based on the overbillings identified by UCSF internally, as set forth above, assuming that

2

discovery identifies a similar rate of overbilling of 8%, then the quantum of harm to the

3

Government from UCSF overbilling to Medicare is $29.36 million dollars in fiscal year 2011

4

alone.

5
6
7
8
9

125.

Based on information and belief, for fiscal year 2010, UCSF's Office of the Controller

reported revenues from Medicare and Medi-Cal as a combined amount rather than separate and
distinct revenue items. Based on information and belief, prior to 2010, UCSF did not report the
specific amounts of revenues received from Medicare or Medi-Cal at all. Accordingly, the

10

following extrapolations are made to provide an estimate of the quantum of harm based on the

11

ascertainable data.

12
13
14
15

126.

According to the Office of the Controller, for fiscal year 2010, UCSF Medical Center as a

whole had revenues of approximately $559 million dollars ($559,000,000) from Medicare and
Medi-Cal combined. The Medical Center's total revenue for fiscal year 2011 was approximately

16

$1.784 billion dollars ($1,784,000,000).

17

127.

18

Medi-Cal reimbursements.

19
20
21
22

128.

As a result, about 31 % of Medical Center revenue in 2011 derived from Medi care and

Between fiscal years 2011-15, Medicare billings accounted for an average of about

68.4% of the Medical Center's combined revenue derived from Medicare and Medi-Cal. Thus,
by extrapolation, the Medical Center derived about $382.3 million dollars from Medicare billings

23

in 2010. Based on the overbillings identified by UCSF internally, as set forth above, assuming

24

that discovery identifies a similar rate of overbilling of 8%, then the quantum of harm to the

25

Government from UCSF overbilling to Medicare is $30.58 million dollars in fiscal year 2010

26
27
28

alone.
129.

According to the Office of the Controller, the approximate total annual reported revenues
27

Second Amended Complaint

37a

Case No. : 16-cv-4034-CW EOR-347

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 28 of 34

1

for UCSF Medical Center and related activities were as follows for fiscal years 2004-09: $1.82

2

billion (2009); $1.65 billion (2008); $1.54 billion (2007); $1.39 billion (2006); $1.26 billion

3

(2005); and $1.19 billion (2004). Thus, between fiscal years 2004-09, UCSF received

4

approximately $8.86 billion dollars in total revenue from the Medical Center and related

5
6
7
8
9

activities.
130.

Between fiscal years 2011-15, Medicare billings accounted for an average of 18.95% of

the Medical Center's total annual revenue. Thus, by extrapolation, from fiscal years 2004-09,
Medicare billings accounted for about $1 .64 billion in revenues.

10

131.

11

that discovery identifies a similar rate of overbilling of 8%, then the quantum of harm to the

12
13
14
15

Based on the overbillings identified by UCSF internally , as set forth above, assuming

Government from UCSF overbilling to Medicare is $131.2 million dollars in fiscal years 200409 alone.
132.

Absent an Order from the Court enjoining the practices set forth above, the loss to the

16

Government will continue in the future.

17

133.

18

Relator Diana Juan was a compliance professional whose role was to improve medical

19
20
21
22

As the Administrator Director, of Clinical Operations for the Neurology Department,

documentation in order to support improved billing.
134.

JUAN was terminated after her efforts at improving the billing system were stifled by the

named Defendants. Due to the culture of retaliation, UCSF has a pattern and practice of not

23

self-reporting overpayments and incorrect payments.

24

135.

25

that the false claims identified herein did not come to light, which would demonstrate

26
27
28

Each of the individual Defendants had a personal and professional interest in ensuring

mismanagement, and each had an interest in making sure that the overbillings identified by
JUAN in the Department of Neurology as School of Medicine/Medical Center systemic issues
28
Second Amended Complaint

38a

Case No. : 16-cv-4034-CW EOR-348

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 29 of 34

1

were not repaid to CMS, as such repayments would negatively impact their performance

2

evaluation and career progression.

3

136.

4

claims and failure to repay overbillings, each individual Defendant benefited from the false

5
6
7
8
9

Although each individual Defendant may not have personally profited from the false

claims and overbillings, as it increased the profitability of their respective departments and areas
of responsibility.
137.

Each of the individual Defendants had a personal and professional interest in ensuring

that the false claims identified herein did not come to light, and that the overbillings identified by

10

JUAN in the Department of Neurology as School of Medicine/Medical Center systemic issues

11

were not repaid to CMS, as such information would negatively impact their professional

12
13
14
15

reputation and career progression.
138.

The individual Defendants acted in concert and knowingly submitted or, in reckless

disregard of the truth, allowed to be submitted unlawful claims described above.

16

139.

17

patient claims, (2) antiquated computer systems that generated false claims, (3) internal

18

processes designed to improperly assign patient admission status, and (4) a lack of review to

19
20
21
22

These improperly billed claims were caused by (1) inadequate documentation to support

ensure appropriate patient status assignments.
140.

JUAN brought these problems to the attention of UCSF management personnel, the

named Defendants, and none of them acted to correct and/or prevent the Medicare claims from

23

being improperly labeled and billed.

24

141.

25

continued fraudulent activity against Medicare

UCSF management, the named Defendants, encouraged, directed, and facilitated the

26
27
28

29
Second Amended Complaint

39a

Case No. : 16-cv-4034-CW EOR-349

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 30 of 34

1

142.

All of the named Defendants had an economic incentive to protect the information from

2

disclosure as their salaries, bonuses, job security, and professional reputations were reliant on

3

Medicare misbillings, overbillings, and false certifications being concealed.

4

143.

5
6
7
8
9

Defendant SAM HAWGOOD, knowingly permitted the continued presentation or

caused to be presented false claims for payment from the United States government; knowingly
made, or caused to be made, false records or statements in order to receive payment from the
Government and act together to conspire with the other named Defendants to have the
government pay a false or fraudulent claim.

10

144.

11

audit the outside coding, the failure to repay overbillings caused by the systematic failures

12
13
14
15

Defendant HAWGOOD, as Chancellor of UCSF, had direct knowledge of the failure to

identified by JUAN in the Neurology Department, which were present throughout all parts of the
School of Medicine and Medical Center because of systemic failure, and failed to cause UCSF to
repay the overbilled items.

16

145.

17

caused to be presented claims for payment from the United States government; knowingly made,

18

or caused to be made, false records or statements in order to receive payment from the

19
20
21
22

Defendant STEPHEN HAUSER, knowingly permitted the continued presentation or

Government and act together to conspire with the other named Defendants to have the
government pay a false or fraudulent claim.
146.

Defendant HAUSER, as Head of the Department of Neurology, had direct knowledge of

23

the failure to audit the outside coding, the failure to repay overbillings caused by the systematic

24

failures identified by JUAN in the Neurology Department, which were present throughout all

25

parts of the School of Medicine and Medical Center because of systemic failure, and failed to

26

cause UCSF to repay the overbilled items.

27
28

30
Second Amended Complaint

40a

Case No. : 16-cv-4034-CW EOR-350

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 31 of 34

1

147.

Defendant EILEEN KAHANER, knowingly permitted the continued presentation or

2

caused to be presented claims for payment from the United States government; knowingly made,

3

or caused to be made, false records or statements in order to receive payment from the

4

Government and act together to conspire with the other named Defendants to have the

5
6
7
8
9

government pay a false or fraudulent claim.
148.

Defendant KAHANER had direct knowledge of the failure to audit the outside coding,

the failure to repay overbillings caused by the systematic failures identified by JUAN in the
Neurology Department, which were present throughout all parts of the School of Medicine and

10

Medical Center because of systemic failure, and failed to cause UCSF to repay the overbilled

11

items.

12
13
14
15

149.

Defendant GRETA SCHNETZLER, knowingly permitted the continued presentation or

caused to be presented for payment from the United States government; knowingly made, or
caused to be made, false records or statements in order to receive payment from the Government

16

and act together to conspire with the other named Defendants to have the government pay a

17

false or fraudulent claim.

18

150.

19
20
21
22

Defendant SCHNETZLER, as the head of Legal Affairs at UCSF, had direct knowledge

of the failure to audit the outside coding, the failure to repay overbillings caused by the
systematic failures identified by JUAN in the Neurology Department, which were present
throughout all parts of the School of Medicine and Medical Center because of systemic failure,

23

and failed to cause UCSF to repay the overbilled items.

24

151.

25

to be presented for payment from the United States government; knowingly made, or caused to

26

Defendant CLIFF SKINNER, knowingly permitted the continued presentation or caused

be made, false records or statements in order to receive payment from the Government and act

27
28

31
Second Amended Complaint

41a

Case No. : 16-cv-4034-CW EOR-351

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 32 of 34

1

together to conspire with the other named Defendants to have the government pay a false or

2

fraudulent claim.

3

152.

4

the failure to repay overbillings caused by the systematic failures identified by JUAN in the

5
6
7
8
9

Defendant SKINNER, had direct knowledge of the failure to audit the outside coding,

Neurology Department, which were present throughout all parts of the School of Medicine and
Medical Center because of systemic failure, and failed to cause UCSF to repay the overbilled
items.
153.

Defendant TERESA O'LONERGAN, knowingly permitted the continued presentation or

10

caused to be presented for payment from the United States government; knowingly made, or

11

caused to be made, false records or statements in order to receive payment from the Government

12
13
14
15

and act together to conspire with the other named Defendants to have the government pay a
false or fraudulent claim.
154.

Defendant O'LONERGAN, as head of the Office of Compliance and Ethics, reported

16

directly to the Chancellor.

17

155.

18

failure to audit the outside coding, the failure to repay overbillings caused by the systematic

19
20
21
22

Defendant O'LONERGAN, upon information and belief, had direct knowledge of the

failures identified by JUAN in the Neurology Department, which were present throughout all
parts of the School of Medicine and Medical Center because of systemic failure, and failed to
cause UCSF to repay the overbilled items.

23

156.

24

to be presented for payment from the United States government; knowingly made, or caused to

25

be made, false records or statements in order to receive payment from the Government and act

26
27
28

Defendant SHERYL VACCA, knowingly permitted the continued presentation or caused

together to conspire with the other named Defendants to have the government pay a false or
fraudulent claim.
32
Second Amended Complaint

42a

Case No. : 16-cv-4034-CW EOR-352

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 33 of 34

1

157.

Defendant VACCA, had direct knowledge of the failure to audit the outside coding, the

2

failure to repay overbillings caused by the systematic failures identified by JUAN in the

3

Neurology Department, which were present throughout all parts of the School of Medicine and

4

Medical Center because of systemic failure, and failed to cause UCSF to repay the overbilled

5

items.

6
7
8
9

NONMONETARY HARM
158.

The practices set forth above also carry with them non-economic harm: by not

transmitting findings and the results of the referral back to the referring physician, very

10
11
12

important medical care is not being rendered, and when it is being rendered, it is being slowed in
a fashion that places the health and safety of referred patients at increased risk.

13

PRAYER FOR RELIEF

14
15

WHEREFORE, Plaintiff, United States of America, through Plaintiff-Relator, requests the Court

16

enter the following relief:

17

1.

That Defendants be ordered to cease and desist from violating 31 U.S.C. § 3729, et seq.;

18

2.

That this Court enter judgment against Defendants in an amount equal to three times the

19
20
21
22

amount of damages the United States has sustained because of Defendants' actions, plus a civil
penalty of not less than $5,000 and not more than $10,000 for each violation of 31 U.S.C.
§ 3729;

23

3.

24

§ 3730(d) of the False Claims Act.

25

4.

26
27
28

That Plaintiff-Relator be awarded the maximum amount allowed pursuant to 31 U.S.C.

That Plaintiff-Relator be awarded all costs of this action, including attorneys' fees and

expenses; and
5.

That Plaintiff-Relator recover such other relief as the Court deems just and proper.
33

Second Amended Complaint

43a

Case No. : 16-cv-4034-CW EOR-353

Case 4:16-cv-04934-CW Document 72 Filed 07/09/18 Page 34 of 34

11
22
33

Dated: July 9, 2018

SMITH PATTEN

44

/s/ Dow W. Patten
DOW W. PATTEN
Attorney for Plaintiff-Relator
DIANA JUAN

55
6

77
88
99
10
10
10
11
11
11
12
12
12
13
13
13
14
14
14
15
15
15
16
16
16
17
17
17
18
18
18
19
19
19
20
20
20
21
21
21
22
22
22
23
23
23
24
24
24
25
25
25
26
26
26
27
27
27
28
28
28

34
Second Amended Complaint

44a

Case No. : 16-cv-4034-CW EOR-354

